                    September 27, 1999

                    JOHN H. WARD
                    VICE PRESIDENT, FINANCE, CONTROLLER

                    Subject: 	 Mementos and Other Items Provided at
                               Conferences, Meetings, and Training Sessions
                               (Report Number FR-MA-99-003)

                    This is our report on the United States Postal Services’
                    (USPS) practice of giving mementos and other items at
                    conferences, meetings, and training sessions. We initiated
                    the review to evaluate the propriety of USPS officials giving
                    such mementos and other items of value to employees.
                    While this type of memento has become traditional at many
                    USPS functions, it is a form of gift giving, so we refer to
                    these types of gifts as mementos throughout this report.

Results in Brief	   Our review identified that Federal statutes do not prevent
                    USPS employees from giving mementos and other items at
                    conferences, meetings, and training sessions. However,
                    this practice subjects the USPS to potential criticism and the
                    perception of improper use of postal revenue. Specifically,
                    we identified that the USPS practices were inconsistent with
                    those of the Fortune 500 Corporations surveyed. The
                    average value of mementos given at USPS events was
                    greater than the value of gifts reported by the companies
                    participating in our comparison. USPS officials also
                    provided mementos at more conferences, meetings, and
                    training sessions than the corporate representatives
                    surveyed. USPS officials provided mementos, valued at
                    about $300,000, to employees at 13 of the 22 events we
                    reviewed. Among those 13, the average value of mementos
                    ranged from $22 to $98 per person per event.

                    The USPS Executive and Administrative Schedule
                    recognition awards program policy sets forth criteria for
                    different levels of informal recognition. However, outside of




                            Restricted Information
Mementos and Other Items Provided at Conferences,                                                   FR-MA-99-003
 Meetings, and Training Sessions


                                   the awards program, there are no established criteria as to
                                   what may be given to employees at internal events. As a
                                   result, USPS officials are not restricted on the types,
                                   quantity, or value of mementos given at USPS sponsored
                                   events. This lack of policy subjects the USPS to the risk of
                                   potential criticism, adverse publicity, and embarrassment.
                                   The Office of Inspector General (OIG) is currently reviewing
                                   an allegation of excessive expenditures, including
                                   mementos at a fiscal year (FY) 1998 USPS national
                                   conference based on a hotline complaint alleging an abuse
                                   and waste of funds. USPS officials should establish a
                                   memento-giving policy to avoid conduct that may create the
                                   perception of improper use of postal revenue.

                                   We suggest that the Vice President, Finance, Controller,
                                   establish appropriate policies and procedures for mementos
                                   to supplement the Executive and Administrative Schedule
                                   recognition awards program. Management concurred with
                                   our suggestion. Management’s comment is included in the
                                   appendix of this report.

    Objective, Scope, and          The objective of our review was to evaluate the propriety of
    Methodology                    the USPS practices of giving mementos to employees
                                   during conferences, meetings, and training sessions. To
                                   accomplish this objective, we reviewed Federal statutes and
                                   ethics laws governing gift-giving practices to determine their
                                   applicability to the USPS. We also compared the USPS
                                   memento-giving practices with those of 10 Fortune 500
                                   Corporations surveyed.1 Our survey included data from
                                   FY 1997. Recent conversations with management officials
                                   confirmed that little has happened to change policy and
                                   practices concerning memento giving since our initial
                                   survey. We interviewed appropriate officials and reviewed
                                   relevant documentation within the USPS, Fortune 500
                                   Corporations, and independent marketing organizations.2

1
  We selected 22 USPS conferences, meetings, and training sessions held during FY 1997 to determine the type,
quantity, and cost of mementos given to USPS employees at these events. We judgmentally selected the
conferences, meetings, and training sessions from a universe of events identified by officials from the Purchasing
and Materials Office and numerous Headquarter Organizations. We also selected 25 Fortune 500 Corporations with
the highest grossing revenues, to determine their memento-giving practices. Representatives from 10 of the
corporations participated in the survey. The information provided by the representatives was self-reported and not
independently verified.
2
  We interviewed officials and event coordinators from the Offices of the Chief Operating Officer and Executive Vice
President, Diversity Development, Engineering, Finance, Human Resources, International Business, Labor
Relations, Marketing, Purchasing and Materials, and Postal Inspection Service. We also interviewed officials from
10 of the top 25 Fortune 500 Corporations, the American Marketing Association, and the American Advertising
Federation. We reviewed event listings; requisitions for supplies, services, or equipment; invoices and associated
memorandums; general ledger accounts; Postal Inspection Service reports; the 1997 AC Nielsen Seventh Annual
Survey of Trade Promotion Practices; and articles from Direct Marketing and Marketing News publications.

                                                         2
                                              Restricted Information
Mementos and Other Items Provided at Conferences,                               FR-MA-99-003
 Meetings, and Training Sessions



                              We conducted our review from February 1998 through
                              August 1999 in accordance with the President’s Council on
                              Integrity and Efficiency, Quality Standards for Inspections.

                              The scope of our review was limited to conferences,
                              meetings, and training sessions sponsored by the USPS for
                              USPS employees. We did not evaluate events that the
                              USPS co-sponsored with private sector entities or events
                              sponsored entirely by private sector entities. We did not
                              address items given under the Executive and Administrative
                              Schedule recognition awards program.

 Background 	                 The USPS traditionally gives gifts, or mementos, to
                              employees attending conferences, meetings, and training
                              sessions held throughout the year. These mementos are
                              generally given to all persons attending the events and are
                              not provided in recognition or as an award for specific
                              achievements. The types of mementos range from candy
                              to leather portfolios and have included food items, tote
                              bags, commemorative pins, travel clocks, and shirts.

                              USPS officials do not track the total amount of funds spent
                              on mementos given to employees at USPS events.
                              Officials stated that it would be impossible to determine the
                              total value of mementos given since mementos are
                              purchased by many offices and are paid through various
                              accounts. USPS officials can also purchase mementos
                              locally using a government credit card. USPS officials
                              estimated that government credit cards are used to
                              purchase as many as 99 percent of the mementos given to
                              employees at USPS events.

 Observations 	               The USPS memento-giving practices were inconsistent with
                              those of the Fortune 500 Corporations surveyed.
                              Specifically, USPS officials provided higher value
                              mementos or a collection of mementos that in total had a
                              higher value from more departments than did their
                              corporate
                              counterparts. USPS officials provided mementos - valued
                              at about - $300,000, to employees at 13 of the 22 events
                              reviewed. The average value of mementos ranged from
                              $22 to $98 per person per event.




                                                   3
                                        Restricted Information
Mementos and Other Items Provided at Conferences,                                             FR-MA-99-003
 Meetings, and Training Sessions



                              Federal statutes do not prevent USPS employees from
                              engaging in memento-giving practices. However, the USPS
                              should avoid conduct that may create the public perception
                              that USPS revenues are used inappropriately. The USPS
                              memento-giving practices appeared high when compared to
                              the self-reported practices of the Fortune 500 Corporations.
                              As a result, the USPS needs to establish policies to ensure
                              memento giving is reasonable.

 USPS Memento                 Frequency of Giving Mementos. USPS officials gave
 Giving Practices             mementos to employees at 13 of the 22 events we
                              reviewed. The officials told us that the mementos motivated
                              employees and fostered team spirit. Officials also stated
                              that mementos served marketing and educational purposes,
                              such as clothing containing the USPS logo and books.
                              Other officials stated that they provided mementos that
                              could be used as supplies at the event or in the workplace.
                              Graph A summarizes the number of USPS conferences,
                              meetings, and training sessions reviewed during which
                              mementos were given.

                                                                             7                Events
                                 Conferences
                                                                         6
                                                                                              Mementos
                                                                                     9
                                    Meetings
                                                                 5

                                    Training                             6
                                    Sessions            2

                                               0    2       4        6           8       10



                                          Graph A. Mementos at USPS Events

                              The frequency and quantity of mementos varied by USPS
                              department. For example, of the events reviewed, one
                              Headquarters department sponsored more events and gave
                              more mementos per event than other Headquarters
                              departments. Although the frequency and quantity of
                              mementos given varied by department, memento-giving
                              practices were spread throughout the USPS.

                              Value of Mementos Given. USPS officials provided
                              mementos, valued at about $300,000, to employees at 13
                              of the 22 events reviewed. The average value of mementos
                              ranged from $22 to $98 per person per event. These
                              values do not include mementos given as grab bag items,

                                                   4
                                        Restricted Information
Mementos and Other Items Provided at Conferences,                                      FR-MA-99-003
 Meetings, and Training Sessions


                              prizes, or as part of an event workshop. Graph B
                              summarizes the average value of mementos given to each
                              employee at the USPS conferences, meetings, and training
                              sessions we reviewed. The average values are based on

                              the total value of all mementos given to each employee at
                              each event reviewed.


                               Conferences                                       $98



                                  Meetings                 $33                         Memento
                                                                                       Value

                                  Training

                                                     $22
                                  Sessions



                                             $0     $25          $50   $75    $100


                                   Graph B. Value of Mementos for Each Employee

                              Memento-Giving Approval Process. The approval
                              process for giving mementos varied by the type of event
                              reviewed. For example, committees established to organize
                              national conferences made memento-giving
                              recommendations to an approving official. The approving
                              official decided whether or not mementos would be given,
                              as well as the types of mementos given. Mementos given
                              at meetings and training sessions were normally approved
                              at the local level. Specifically, event coordinators generally
                              approved the mementos and purchased them with the
                              government credit card or through the Finance Office.

 Corporate Memento-           The reported memento-giving practices differed among the corporations
 Giving Practices             surveyed. Memento-giving practices varied by the type of corporation
                              surveyed. Retail and oil corporations surveyed generally did not give
                              mementos to employees at conferences, meetings, or training sessions.
                              If mementos were given, they were primarily valued
                              at around $10 to $15 per person. Technology-
                              focused corporations also did not normally give
                              mementos to employees at events. If mementos
                              were given, they were valued under $25 per person.

                              Memento giving at the majority of corporations surveyed
                              was closely tied to a corporate department’s operations and
                              budget. Specifically, memento-giving practices varied by


                                                   5
                                        Restricted Information
Mementos and Other Items Provided at Conferences,                                     FR-MA-99-003
 Meetings, and Training Sessions


                              department and each department determined how much
                              they could spend on mementos. We also identified that
                              some corporate representatives were more likely to give
                              mementos if customers were attending an event rather than
                              giving mementos at events attended only by employees. A
                              representative from one corporation stated that they had
                              items available for sale at an event rather than giving the
                              items to the employees.

 Comparison of USPS           USPS officials provided higher-valued mementos than the
 and Corporate                corporate representatives surveyed. Specifically, the
 Memento Giving               average value of mementos given at the USPS events
 Practices                    reviewed ranged from $22 to $98 per person, depending on
                              the event type. The majority of corporate representatives
                              surveyed, when providing mementos, only provided items
                              valued from $10 to $25 per person. Although
                              representatives from marketing-focused corporations
                              provided higher-valued mementos, the items given were
                              generally lower in value than mementos provided by USPS
                              officials.

 Propriety of USPS            Memento giving practices expose the USPS to potential
 Memento Giving               criticism, adverse publicity, and embarrassment. Although
 Practices                    Federal statutes do not prevent USPS officials from giving
                              mementos to employees, the USPS should avoid the
                              appearance of using postal funds inappropriately. USPS
                              officials should establish a memento-giving policy to avoid
                              the appearance of improper use of postal revenue and to
                              ensure that mementos are reasonable.

                              The USPS Executive and Administrative Schedule
                              recognition awards program policy sets forth criteria for
                              different levels of informal recognition. However, outside of
                              the awards program, there are no established criteria as to
                              what may be given to employees at internal events. This
                              lack of policy for giving mementos outside the awards
                              program subjects the USPS to the risk of potential criticism,
                              adverse publicity, and embarrassment. The OIG is currently
                              reviewing a hotline allegation of abuse and waste of funds,
                              including mementos at a FY 1998 USPS national
                              conference.

 Suggestion 	                 We suggest that the Vice President, Finance, Controller, establish
                              policies and procedures for mementos to supplement the Executive and
                              Administrative Schedule recognition awards program.

 Management’s                 Management concurred with the suggestion and plans to


                                                   6
                                        Restricted Information
Mementos and Other Items Provided at Conferences,                            FR-MA-99-003
 Meetings, and Training Sessions


 Comment                      issue a management instruction by the end of Postal
                              quarter 1, FY 2000.

 Evaluation of                Management’s comments are responsive to our suggestion.
 Management’s
 Comments
                              We appreciated the cooperation and courtesies provided by
                              your staff during the review. If you have any questions,
                              please contact                , or me at (703) 248-2300.



                              Richard F. Chambers
                              Assistant Inspector General
                               for Performance

                              cc: 	 M. Richard Porras
                                    Alan B. Kiel
                                    John R. Gunnels




                                                   7
                                        Restricted Information
Mementos and Other Items Provided at Conferences,                FR-MA-99-003
 Meetings, and Training Sessions




                                                   8                 Appendix
                                        Restricted Information
Mementos and Other Items Provided at Conferences,                FR-MA-99-003
 Meetings, and Training Sessions


 Major Contributors to
 This Report




                                                   9
                                        Restricted Information
